               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Emergency Preparedness
              for Hurricane Sandy

                       Audit Report




                                         September 30, 2013

Report Number HR-AR-13-009
                                                                      September 30, 2013

                                                               Emergency Preparedness
                                                                   for Hurricane Sandy

                                                           Report Number HR-AR-13-009



BACKGROUND:
Hurricane Sandy made landfall on                adequately safeguard mail and other
October 29, 2012, in the eastern U.S.           assets because they were not
causing billions of dollars in damages,         sufficiently trained. Also, seven of nine
including about $39.6 million in total costs    district and installations did not always
and damages to the U.S. Postal Service.         properly complete and approve the
Emergency construction funding was              integrated emergency management plan
required, communications were affected,         because of inadequate oversight and
and alternative continuity of operations        confusion over which facilities required
locations were flooded.                         the plan. As a result, employees, mail,
                                                and $1.1 million of cash and other
The Postal Service has an integrated            assets were exposed to increased risk.
emergency management plan and                   Further, incidents related to national
hurricane guides to prepare for, mitigate,      emergencies could impact the Postal
and respond to emergencies impacting its        Service’s brand.
facilities. It established the Address
Management System to capture correct            Also, the Postal Service’s Address
customer address information to help locate     Management System could benefit other
displaced families in emergencies.              agencies in future national emergencies.

Our objectives were to assess the Postal        WHAT THE OIG RECOMMENDED:
Service’s efforts to protect employees, mail,   We recommended management provide
and other assets before and immediately         periodic training to personnel to ensure
following Hurricane Sandy; and to assess        they are aware of procedures for
whether the Postal Service’s Address            safeguarding employees, clarify policies
Management System can benefit other             for facilities under mandatory evacuation
agencies in response to future national         orders, establish guidance for holding
emergencies.                                    and moving mail and assets from
                                                facilities in mandatory evacuation areas,
WHAT THE OIG FOUND:                             establish controls to ensure integrated
In most of the 27 locations we visited,         emergency management plans are
management implemented emergency                approved and updated at least annually,
plans to safeguard employees and                and clarify which facilities are required
assets, assessed damages, and quickly           to maintain integrated emergency
re-established operations. However,             management plans.
managers at four locations did not
adequately safeguard employees and              Link to review the entire report
managers at 13 locations did not
September 30, 2013

MEMORANDUM FOR:           JOSHUA D. COLIN
                          VICE PRESIDENT, EASTERN AREA OPERATIONS

                          RICHARD P. ULUSKI
                          VICE PRESIDENT, NORTHEAST AREA OPERATIONS

                          PAT A. MENDONCA
                          SENIOR DIRECTOR, OFFICE OF THE POSTMASTER
                          GENERAL




FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Emergency Preparedness for Hurricane
                          Sandy (Report Number HR-AR-13-009)

This report presents the results of our audit of Emergency Preparedness for Hurricane
Sandy (Project Number 13YG012HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Emergency Preparedness for Hurricane Sandy                                                                         HR-AR-13-009



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Safeguarding Employees ................................................................................................ 2

Safeguarding Mail and Other Assets ............................................................................... 4

Integrated Emergency Management Plan ....................................................................... 4

Address Management System ........................................................................................ 5

Postal Service Actions Taken .......................................................................................... 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology ........................................................................ 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Other Impact ............................................................................................. 12

Appendix C: Photographs of an Impacted Facility ......................................................... 13

Appendix D: Facilities Reviewed ................................................................................... 14

Appendix E: Management’s Comments ........................................................................ 15
Emergency Preparedness for Hurricane Sandy                                                          HR-AR-13-009



Introduction

This report presents the results of our audit of Emergency Preparedness (EP) for
Hurricane Sandy (Project Number 13YG012HR000). This is a self-initiated audit. Our
objectives were to assess the U.S. Postal Service’s efforts to protect employees, mail,
and other assets before and in the immediate aftermath of Hurricane Sandy1 and to
assess whether the Postal Service’s customer address management system (AMS)
could benefit other agencies in response to future national emergencies. See Appendix
A for additional information about this audit.

Hurricane Sandy made landfall in the eastern U.S. on October 29, 2012. At least
181 postal facilities suffered damage requiring emergency construction funding. The
Eastern and Northeast areas were overwhelmed with recovery efforts. Communications
were affected and sites identified as alternative continuity of operations plan (COOP)
locations were flooded. For the districts visited, the Postal Service estimated costs at
more than $6.7 million to impacted facilities, with that estimate rising as repairs are
made and estimates revised.

The Postal Service’s Integrated Emergency Management Plan (IEMP) is a
comprehensive plan used to prepare for, mitigate, respond to, and recover from
domestic emergencies that occur at Postal Service sites. In addition, Postal Service
hurricane plans and guides are emergency-specific plans for facility, district, and/or area
operation use. The purpose of these plans is to provide procedures and protocols to
follow for the protection of Postal Service personnel, their families, and Postal Service
property and equipment. They include the COOP, crisis management plan, emergency
action plan, and other emergency-specific plans.

Conclusion

At most locations we visited, the Postal Service implemented emergency management
plans to safeguard employees and assets, assessed damage to the mail processing
network, and quickly re-established mail processing operations. However, managers at
some locations did not adequately safeguard employees, mail, and other assets at
facilities in known flood zones. In addition, responsible personnel did not always
complete and approve IEMPs in accordance with Postal Service policy. Finally, the
Postal Service’s customer AMS could benefit other agencies in response to future
national emergencies.

As a result, employees, mail, and about $1.1 million of cash and other assets were
exposed to increased risk. Further, incidents related to national disasters could
negatively impact the Postal Service’s brand.


1
 We did not address the effectiveness of the delivery vehicle operational response to Hurricane Sandy. The U.S.
Postal Service Office of Inspector General’s (OIG) will issue a separate report on that effort.
                                                            1
Emergency Preparedness for Hurricane Sandy                                                             HR-AR-13-009




Safeguarding Employees

At 23 of the 27 facilities we visited, the Postal Service took appropriate action to
effectively safeguard most employees. For example:

   Long Island District officials assessed local conditions, followed mandatory
    evacuation orders, and cancelled operations at impacted postal facilities.

   After Hurricane Sandy’s impact, Triboro District officials, in coordination with the U.S.
    Postal Inspection Service, assessed facilities that were flooded and ordered those
    facilities closed pending inspection.

However, at four of the 27 facilities we visited, managers did not adequately ensure the
safety of employees. Specifically:

   Management required employees at the                       Post Office         to report
    to work the day of the hurricane even though the facility was located in a mandatory
    evacuation zone.2 Employees entered the affected area despite orders by local law
    enforcement not to enter. While at the facility, floodwaters rose quickly so the U.S.
    Coast Guard had to rescue several employees trapped by the rising waters.

The Postal Service’s Hurricane Preparedness Guide requires the Postal Service to
ensure emergency actions for a given location are consistent with guidance from state
and local authorities. Hurricane plans must include local decision points and associated
actions, such as a local authority ordering an evacuation. Further, Postal Service policy
requires managers to evaluate the need to evacuate or close facilities depending on
information received via radio or public service address and information provided by the
National Oceanic and Atmospheric Administration.

   At three locations, operations were conducted before completion of required
    assessments. Specifically:

    o A contractor conducted an assessment at the               Post Office on
      October 31, 2012. The facility had been damaged by hurricane floodwaters. The
      report stated that employees were inside and outside of the facility, sorting mail
      and moving contaminated and damaged mail and equipment from the facility
      before completion of the assessment.

    o A contractor conducted an assessment at the                    Post Office more
      than 2 weeks after the hurricane. The facility had also been damaged by
      hurricane floodwaters. The assessment found that facility conditions were highly
      conducive to mold growth in the walls and that interior walls exceeded moisture


2
 In the event of a disaster, local officials can declare a mandatory evacuation. Hurricane evacuation zones are the
areas of the city that may need to be evacuated due to life or safety-related threats from storm floodwaters.


                                                          2
Emergency Preparedness for Hurricane Sandy                                                           HR-AR-13-009



        levels up to 1 foot above floor level. However, at the time of the assessment,
        postal operations were being conducted.

    o A contractor conducted an assessment at the                  Post Office more than
      2 weeks after Hurricane Sandy’s impact. The facility was damaged by hurricane
      floodwaters and all interior walls were above acceptable moisture levels 1 to 3
      feet above floor level. Further, there was a high probability of mold and
      conditions were conducive to mold growth in walls. However, employees and
      customers were at the facility at the time of the assessment and were found
      working inside and outside of the building at both retail and distribution
      operations.

Postal Service policy states that facilities affected by surge waters are required to have
security, structural, and safe and health assessments before employees re-enter the
facility and buildings are not to be entered until assessments are competed and deemed
safe to enter.3

   Employees at the              Post Office sorted and delivered wet mail without the
    required protective equipment. Management only provided gloves and masks to
    employees who collected and handled the contaminated mail.

Postal Service procedures for collecting and handling mail damaged by storm surge or
floodwaters require the issuance of gloves, disposable or washable coveralls, long
sleeve shirts and pants, goggles, and shields or safety glasses with side shields.4
Employees did not believe management provided sufficient protective equipment.

This occurred because installation managers and emergency management team
members did not receive sufficient hurricane preparedness training. We reviewed
training records of personnel responsible for EP and found that 35 of 56 (63 percent) did
not receive sufficient training in EP.5 Officials stated that they are currently developing
additional EP training requirements. EP training and periodic refresher training is
necessary to ensure emergency response personnel respond effectively and
consistently to future incidents.

Conducting operations at potentially contaminated facilities before completion of facility
assessments, not adhering to local evacuation orders, and handling contaminated mail
and other assets without proper protection expose employees to increased risk of harm.
See Appendix C for flood and rescue photographs.




3
  Postal Service Hurricane Response Guidance dated September 21, 2005.
4
  Hurricane Response Guidance dated September 21, 2005.
5
  We assessed whether EP personnel received training in IEMP, Postal Alert Notification System, National Incident
Management System, and Incident Command System.


                                                         3
Emergency Preparedness for Hurricane Sandy                                                               HR-AR-13-009




Safeguarding Mail and Other Assets

Postal Service officials did not adequately safeguard the mail and other assets at 136 of
the 27 facilities visited. For example, officials sent mail to Postal Service facilities in
known flood zones in the New Jersey Barrier Islands although the National Weather
Service issued a coastal flood watch and mandatory evacuation orders were in effect.
An installation official stated management could have held the mail at processing and
distribution centers (P&DCs) and established additional procedures for removing mail
and assets from the facility. Also, in the Triboro District, an installation manager did not
take measures to safeguard the mail or assets. As a result, about 100 bags7 of mail
were destroyed and other assets at the facility were placed at risk.8

The Postal Service’s policies and procedures for safeguarding mail and other assets9
during an emergency include procedures for employees to raise mail as high as
possible, wrap and cover equipment, and secure assets in safes within the facility. They
also include contingency plans to hold mail or relocate movable items and assets to a
location outside the flood zone area; however, this was not done.

Because the Postal Service did not adequately safeguard assets, we identified about
$1.1 million in assets at risk. See Appendix B for additional information.

Integrated Emergency Management Plan

Responsible personnel did not always complete and approve IEMPs in accordance with
Postal Service policy. Seven of the nine districts and installations we reviewed did not
have completed and approved IEMPs as required before Hurricane Sandy. This
occurred because Postal Service management did not provide sufficient oversight to
ensure responsible personnel completed these tasks and it is unclear which facilities
are required to have an IEMP. One official stated that only Biohazard Detection System
facilities are required to complete an IEMP. Another official stated that level 2410 and
above facilities are required to complete an IEMP.
Postal Service policy11 requires district and installation managers to update IEMPs
annually. These updates are necessary to keep the plan current and accurate with
changes that may have occurred throughout the previous year. When IEMPs are not
completed in accordance with Postal Service guidance and the requirements are
unclear, Postal Service employees, customers, the mail, and other assets are exposed
to increased risk.

6
  Nine facilities did not adequately safeguard mail and assets, three did not safeguard assets, and one did not
safeguard the mail.
7
  Damaged mail at this facility was placed in plastic trash bags and staged at the                  .
8
  We were unable to determine the number of mailpieces destroyed at each affected facility; however, the Postal
Service reported 38.75 tons of damaged mail underwent witnessed destruction.
9
  Other assets consist of cash, stamp stock, and equipment.
10
   Facility levels are calculated based on several factors such as current postmaster level, number of city and rural
deliveries served, and number of rural route boxes served.
11
   Postal Service district and installation IEMP templates, March 2004.


                                                           4
Emergency Preparedness for Hurricane Sandy                                                             HR-AR-13-009




Address Management System

The Postal Service’s AMS could benefit other agencies in response to future national
emergencies. Specifically, the Postal Service’s AMS contains a National Change of
Address process that allows customers to update their addresses using Postal Service
Form 3575, Official Mail Forwarding Change of Address Order. Customer name and
address information is protected by the Privacy Act, but can be provided to other federal
agencies for official use during emergencies.

U.S. Department of Veterans Affairs (VA) and U.S. Social Security Administration (SSA)
personnel stated they were aware of the AMS, but because the Postal Service was able
to restore services very quickly, there was no need to use the system. Officials from
both agencies stated their internal processes were sufficient to respond to emergencies
and they used social media to inform customers how to update their address
information. Both agencies also provide links on their websites to the Postal Service's
website to update address information. Also, the Postal Service’s Office of National
Preparedness officials stated they coordinated activities with Federal Emergency
Management Agency (FEMA) officials, which included a discussion of AMS data usage.
Because there was a relatively small overall increase (about 13 percent)12 in the total
number of address changes for the month following the hurricane compared to the
same period the previous year in the Eastern and Northeast areas, FEMA did not make
any requests for AMS assistance.

Regarding future use, SSA officials stated they would consider using the AMS should
there be a need and expressed confidence in getting the necessary support from Postal
Service officials. FEMA officials indicated they would use AMS data to ensure delivery
of relief checks and to assist in preventing fraud and expressed interest in possibly
using this data as an additional source of statistics for displaced persons.13

Postal Service Actions Taken

The Postal Service identified lessons learned from Hurricane Sandy and has begun
taking action to better prepare for future natural disasters. For example, management
has implemented a process of information sharing with stations and post offices and
requires local installation managers to update employee contact numbers on the first of
every month. They have also conducted service talks on procedures for safeguarding
accountable mail. These actions should improve future responses to hurricanes.




12
   There were 102,806 change of address requests for October 29 to November 30, 2011, and 116,479 changes
following Hurricane Sandy. In comparison, more than1 million people were displaced by Hurricane Katrina in 2005.
13
   We contacted representatives from FEMA's Office of External Affairs to obtain information about the potential use
of AMS.


                                                          5
Emergency Preparedness for Hurricane Sandy                                      HR-AR-13-009




Recommendations

We recommend the vice presidents, Eastern and Northeast areas, in coordination with
the senior director:

1. Provide periodic training to responsible personnel to ensure they are aware of
   procedures for safeguarding employees during an emergency.

2. Clarify policies and procedures regarding employees reporting to Postal Service
   facilities where mandatory evacuation orders have been issued.

3. Issue supplemental guidance for holding mail and moving mail and other assets
   from facilities located in mandatory evacuation areas.

4. Establish controls to ensure integrated emergency management plans are reviewed,
   approved, and updated at least annually.

5. Clarify which facilities are required to maintain complete, approved, integrated
   emergency management plans and communicate that to appropriate personnel.

Management’s Comments

Management generally agreed with the findings of assets at risk and all the
recommendations. They did not agree with employees at risk relating to mandatory
evacuations, stating that postal policy is to adhere to and be consistent with locally
ordered evacuations. Regarding the                     evacuation, they stated the order
required residents to evacuate by 9 p.m. October 29, 2012, and the instructions to
carriers were to be off the streets by 11 a.m. Management stated this was a prudent
response to the evacuation order and that the storm surge rose earlier than forecast.
They also stated that the Postal Service prepared to the best of its ability, but with any
disaster there will be circumstances beyond its control such as the timing of the storm
surge along the New Jersey coast.

Regarding recommendation 1, management agreed to provide training to area and
district officials by holding tabletop exercises on an annual basis as part of the
preparations for the hurricane season, as well as just in time training to potentially
impacted facilities in the days before landfall based on the National Hurricane Center
forecast. Because the 2013 hurricane season still remains, training for the 2014
hurricane season has not yet been scheduled. Just in time training will be scheduled for
any storms in the remainder of the 2013 hurricane season.

Regarding recommendation 2, the Postal Service has a set policy that mandatory
evacuations issued by local authorities will be followed, and that policy is reviewed
during the annual hurricane season preparatory activities. In the event of an incoming
storm and mandatory evacuations have been ordered, the Postal Service will monitor



                                             6
Emergency Preparedness for Hurricane Sandy                                     HR-AR-13-009



storm activities and timing of evacuations prior to forecast landfall. This will include
regular meetings with area and district leadership, activating vehicle relocation plans,
and communicating to employees when to evacuate and where to report post landfall.
They also stated they will review the hurricane guide and revise it appropriately each
year. For the 2014 hurricane season, this review will be completed by March 31, 2014.

Regarding recommendations 3 and 4, management will review and update emergency
plans on an annual basis as part of the preparations for the hurricane season.
Additionally, the Postal Service will conduct after action reviews to identify and
incorporate any lessons learned from each event. The reviews and updates will be
completed and additional guidance will be developed and distributed to the field by the
end of calendar year 2013 and any additional guidance will be added to the hurricane
guide in the annual update for the 2014 hurricane season. Also, management will
review and update, as appropriate, the existing controls for reviewing, approving, and
updating IEMPs by the end of calendar year 2013.

Regarding recommendation 5, management will clarify which facilities are required to
maintain complete and approved IEMPs and communicate that to appropriate personnel
by the end of calendar year 2013. See Appendix E for management’s comments, in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
employees at risk, specifically relating to the                evacuation, we
acknowledge the existing policy and that the exact timing of the storm could not be
predicted. However, mandatory evacuations were in effect as of 9 p.m.,
October 28, 2012, and local authorities closed              which is the main road leading
to the                . Since employees entered a mandatory evacuation zone despite
orders by local law enforcement not to enter, we continue to believe management could
have reduced the risk to employees by not requiring them to report to work the day of
the hurricane.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG request written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             7
Emergency Preparedness for Hurricane Sandy                                                               HR-AR-13-009




                                  Appendix A: Additional Information

Background

Hurricane Sandy made landfall in the eastern U.S. on October 29, 2012, striking near
Atlantic City, NJ. The total nationwide impact to the Postal Service is estimated at
$39.6 million. Numerous Postal Service facilities suffered damage or complete
destruction, requiring emergency construction funding.

In the aftermath of Hurricane Sandy’s initial impact, the Eastern and Northeast areas
were overwhelmed with recovery efforts. Although many Postal Service facilities were
damaged, all employees were accounted for and no major workplace injuries occurred.
Communications were affected and sites identified as alternative COOP locations were
flooded. The Postal Service rerouted mail from damaged facilities and continued to
process mail at alternative facilities not impacted by the hurricane. Numerous Postal
Service facilities in the Eastern and Northeast areas suffered damage or complete
destruction, resulting in about $6.7 million in repairs14 to 181 Postal Service facilities.
Table 1 depicts the estimated cost of repairs for owned and leased facilities.

                          Table 1. Estimated Cost of Damaged Facilities

                                                    Number of
                 Type of Facility                   Facilities                     Costs
                Owned                                                89            $3,370,229

                Leased                                               92               3,281,152

                Total                                               181             $6,651,381
                                                                            15
               Source: Electronic Facilities Management System (EFMS).

Figure 1 shows the facilities we visited in the Eastern and Northeast areas that were
hardest hit.




14
  As of February 28, 2013. Costs are expected to increase as repairs are made and estimates revised.
15
  The EFMS is the official Postal Service record for real property inventory and the management system for
administering all property related projects including acquisition, design, construction, disposal, and repairs.


                                                           8
Emergency Preparedness for Hurricane Sandy                                                                 HR-AR-13-009



                       Figure 1. Summary of Impacted Facilities Reviewed




     Source: OIG analysis.

The Postal Service developed the IEMP16 to assist in the management of natural and
manmade disasters that affect Postal Service facilities.17 The IEMP provides a
framework for managing each phase of an emergency: mitigation, preparedness,
response, and recovery. In addition, the IEMP establishes procedures for minimizing
damage to Postal Service facilities and personnel. The IEMP includes an EAP,18
COOP,19 and annexes.20




16
   The IEMP uses a standardized template to consolidate a facility's stand-alone plans; for example, contingency
plans, Emergency Action Plans (EAP), COOP, crisis management plans, and emergency specific plans. The IEMP
also establishes emergency management teams and defines team roles and responsibilities, and positions.
17
   According to Postal Service officials, only level 24 or higher postal facilities are required to develop and maintain
IEMPs.
18
   The EAP provides tasks and procedures for evacuating the installation.
19
   The COOP provides operational tasks and procedures for moving operations to an alternate facility.
20
   Each annex provides hazard specific procedures to follow during an emergency.


                                                            9
Emergency Preparedness for Hurricane Sandy                                     HR-AR-13-009



Objectives, Scope, and Methodology

Our objectives were to assess the Postal Service’s efforts to protect employees, mail,
and other assets before and in the immediate aftermath of Hurricane Sandy; and to
assess whether the Postal Service’s customer AMS can benefit other agencies in
response to future national emergencies.

To accomplish our objectives, we:

   Conducted fieldwork at 27 Postal Service facilities impacted by Hurricane Sandy in
    the Eastern and Northeast areas.

   Assessed procedures for safeguarding employees, mail, and other assets.

   Reviewed EP plans and lessons learned.

   Interviewed Postal Service officials from headquarters, areas, districts, and
    installations, including local union officials.

   Reviewed applicable EP plans and Postal Service and federal policies.

   Reviewed training records, preparation and response activities associated with
    Hurricane Sandy, and lessons learned.

   Discussed the potential benefits of the Postal Service’s customer AMS with officials
    from FEMA, VA, and SSA.

See Appendix D for a list of the facilities included in our audit.

We conducted this performance audit from January through September 2013, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 23, 2013, and included their
comments where appropriate.

We assessed the reliability of training records and building and assets cost data by
reviewing existing information about the data and the system that produced them, and
interviewing agency officials knowledgeable about the data. We determined that the
data were sufficiently reliable for the purposes of this report.




                                              10
Emergency Preparedness for Hurricane Sandy                                  HR-AR-13-009



Prior Audit Coverage

There were no audit reports issued within the last 3 years related to EP.




                                             11
Emergency Preparedness for Hurricane Sandy                                                              HR-AR-13-009




                                         Appendix B: Other Impact

           Recommendations                        Impact Category                             Amount
                                         Assets or Accountable Items at
                     2, 3                Risk21                                                $330,537
                     2, 3                Physical Safety and Security22                         777,509
                    Total                                                                    $1,108,046

We estimated assets at risk using a conservative approach as follows:

    We determined that 13 of the 27 facilities visited were located in flood zones by
     accessing the FEMA website and using FEMA's Mapping Information Platform. We
     based our conclusion on the address, city, state, and ZIP Code of each facility.

    We obtained capital property listings from the Enterprise Data Warehouse (EDW)
     system to identify the undepreciated values23 for each type of equipment at the
     facilities we visited. The total undepreciated cost of the equipment that could be
     moved quickly was $330,537. These assets include such items as office equipment,
     computers, routers, and outdoor equipment.

    We obtained the cash-on-hand and stamp stock totals from EDW. The total
     cash-on-hand and stamp stock at the impacted facilities was about $777,509.




21
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
22
   Physical operations assets (for example, plant, computer equipment, or vehicles) that are unsafe or at risk of loss
because of inadequate physical protection or safety practices. This category also includes the safety and security of
employees.
23
   Using undepreciated values to determine assets at risk is a conservative approach.


                                                          12
Emergency Preparedness for Hurricane Sandy                                                        HR-AR-13-009



                       Appendix C: Photographs of an Impacted Facility24




                                                                     Photograph 2 –
 Photograph 1 –                   Postal Service
                                                             Postal Service employees and others inside Coast
 employee in lobby of Post Office, waters rising.
                                                                           Guard rescue vehicle.




     Photograph 3 –                  Inside Coast                     Photograph 4 –
     Guard rescue vehicle leaving after employee              Inside Coast Guard rescue vehicle leaving after
                    extraction.                                            employee extraction.


24
     Photographs taken October 29, 2012, by Postal Service employees.


                                                        13
Emergency Preparedness for Hurricane Sandy                                HR-AR-13-009



                             Appendix D: Facilities Reviewed

      Count            Area                        District    Facility Name
     1          Northeast                    Triboro
     2          Northeast                    Triboro
     3          Northeast                    Triboro
     4          Northeast                    Triboro
     5          Northeast                    Triboro
     6          Northeast                    Triboro

     7          Northeast                    Triboro

     8          Northeast                    Triboro
     9          Northeast                    Triboro
     10         Northeast                    Long Island
     11         Northeast                    Long Island
     12         Northeast                    Long Island
     13         Northeast                    Long Island
     14         Northeast                    Long Island
     15         Northeast                    Long Island
     16         Northeast                    Northern New
                                             Jersey
     17         Northeast                    Northern New
                                             Jersey
     18         Northeast                    Northern New
                                             Jersey
     19         Northeast                    Northern New
                                             Jersey
     20         Northeast                    Northern New
                                             Jersey
     21         Eastern                      South Jersey
     22         Eastern                      South Jersey

     23         Eastern                      South Jersey
     24         Eastern                      South Jersey
     25         Eastern                      South Jersey

     26         Eastern                      South Jersey

     27         Eastern                      South Jersey




                                                  14
Emergency Preparedness for Hurricane Sandy                   HR-AR-13-009



                         Appendix E: Management’s Comments




                                             15
Emergency Preparedness for Hurricane Sandy        HR-AR-13-009




                                             16
Emergency Preparedness for Hurricane Sandy        HR-AR-13-009




                                             17
Emergency Preparedness for Hurricane Sandy        HR-AR-13-009




                                             18
